                                                                          Federal Register / Vol. 78, No. 244 / Thursday, December 19, 2013 / Notices                                                76843

                                                www.fda.gov/MedicalDevices/                             effectiveness of these innovative lens                DEPARTMENT OF HEALTH AND
                                                NewsEvents/WorkshopsConferences/                        designs are in various stages of                      HUMAN SERVICES
                                                default.htm. (Select this public                        development. At this workshop, not
                                                workshop from the posted events list.)                  only will some of these novel endpoints               Office of Inspector General
                                                   Streaming Webcast of the Public                      and the challenges with assessments of
                                                Workshop: The morning session but not                                                                         Statement of Delegation of Authority
                                                                                                        these endpoints be identified, but these
                                                the afternoon session of this public                    endpoints also will be prioritized for                   Notice is hereby given that I have
                                                workshop will also be Webcast. Persons                  further discussion, development, and                  delegated to the Inspector General,
                                                interested in viewing the Webcast must                                                                        Office of Inspector General, the
                                                                                                        validation. Breakout sessions following
                                                register online by 5 p.m. EDT, March 14,                                                                      authority vested in the Secretary of
                                                                                                        the didactic portion of the workshop
                                                2014. Early registration is recommended                                                                       Health and Human Services under
                                                because Webcast connections are                         will allow for more in-depth group
                                                                                                        discussions of potential approaches to                section 1116(e)(1) of the Social Security
                                                limited. Organizations are requested to                                                                       Act (42 U.S.C. 1316(e)(1)) to conduct
                                                register all participants, but to view                  address these challenges.
                                                                                                                                                              reconsiderations of disallowances of any
                                                using one connection per location.                         The workshop seeks to involve                      item or class of items for which Federal
                                                Webcast participants will be sent                       industry and academia in addressing the               financial participation is claimed under
                                                technical system requirements after                     challenges in the development of novel                section 1903 of the Social Security Act
                                                registration and will be sent connection                endpoints for premium IOLs. By                        (42 U.S.C. 1396b) for the establishment
                                                access information after March 24, 2014.                bringing together all of the relevant                 or operation of a Medicaid Fraud
                                                If you have never attended a Connect                    stakeholders, which include clinicians,               Control Unit. This authority may be
                                                Pro event before, test your connection at               researchers, industry representatives,                redelegated to the Principal Deputy
                                                https://collaboration.fda.gov/common/                   and regulators, to this workshop, we                  Inspector General. This delegation
                                                help/en/support/meeting_test.htm. To                    hope to facilitate the improvement of                 excludes the authority to issue
                                                get a quick overview of the Connect Pro                                                                       regulations.
                                                                                                        regulatory science in this rapidly
                                                program, visit http://www.adobe.com/                                                                             This delegation is effective upon date
                                                                                                        evolving product area.
                                                go/connectpro_overview. (FDA has                                                                              of signature.
                                                verified the Web site addresses in this                    FDA and AAO recognize the unique
                                                                                                        opportunity this workshop provides for                  Dated: December 12, 2013.
                                                document, but FDA is not responsible
                                                for any subsequent changes to the Web                   all stakeholders of the ophthalmic                    Kathleen Sebelius,
                                                sites after this document publishes in                  device community and that the                         Secretary.
                                                the Federal Register.)                                  knowledge and education provided                      [FR Doc. 2013–30160 Filed 12–18–13; 8:45 am]
                                                   Transcripts: Please be advised that as               from this workshop will further                       BILLING CODE 4152–01–P
                                                soon as a transcript is available, it will              strengthen our mission of protecting the
                                                be accessible at http://                                public health.
                                                www.regulations.gov. It may be viewed                                                                         DEPARTMENT OF HEALTH AND
                                                at the Division of Dockets Management,                  II. Topics for Discussion at the Public               HUMAN SERVICES
                                                Food and Drug Administration, 5630                      Workshop
                                                Fishers Lane, rm. 1061, Rockville, MD                                                                         National Institutes of Health
                                                20852. A transcript will also be                           Topics to be discussed at the public
                                                                                                        workshop include, but are not limited                 National Institute of Biomedical
                                                available in either hardcopy or on CD–                                                                        Imaging and Bioengineering (NIBIB)
                                                ROM, after submission of a Freedom of                   to:
                                                                                                                                                              Announcement of Requirements and
                                                Information request. Written requests                      • Safety assessments for premium                   Registration for the 2014 NIBIB Design
                                                are to be sent to the Division of Freedom               IOLs and how they could differ from                   by Biomedical Undergraduate Teams
                                                of Information (ELEM–1029), Food and                    those for monofocal IOLs.                             (DEBUT) Challenge
                                                Drug Administration, 12420 Parklawn
                                                                                                           • Patient-Reported Outcome (PRO)
                                                Dr., Element Bldg., Rockville, MD
                                                                                                        measures and the need to develop and                    Authority: 15 U.S.C. 3719.
                                                20857. A link to the transcript will also
                                                be available approximately 45 days after                validate them for assessing the safety                SUMMARY:   The National Institute of
                                                the public workshop on the Internet at                  and effectiveness of premium IOLs.                    Biomedical Imaging and Bioengineering
                                                http://www.fda.gov/MedicalDevices/                         • Objective assessments of                         (NIBIB) DEBUT Challenge is open to
                                                NewsEvents/WorkshopsConferences/                        accommodation and their challenges.                   teams of undergraduate students
                                                default.htm. (Select this public                                                                              working on projects that develop
                                                                                                           • Subjective assessments of                        innovative solutions to unmet health
                                                workshop from the posted events list.)
                                                                                                        accommodation and Extended Depth of                   and clinical problems. NIBIB’s mission
                                                SUPPLEMENTARY INFORMATION:
                                                                                                        Focus (EDF) and their challenges.                     is to improve health by leading the
                                                I. Background                                              These topics will be presented by                  development and accelerating the
                                                   Cataract surgery is the most                         experts in the associated area and the                application of biomedical technologies.
                                                commonly performed elective                             afternoon will allow for more in-depth                The goals of the DEBUT Challenge are
                                                procedure in the United States with                     discussions of the given topics in small              (1) to provide undergraduate students
                                                over 3 million patients being implanted                 breakout sessions.                                    valuable experiences such as working in
                                                with an IOL. Over the past two decades,                                                                       teams, identifying unmet clinical needs,
                                                                                                          Dated: December 12, 2013.
emcdonald on DSK67QTVN1PROD with NOTICES




                                                IOLs have undergone significant design                                                                        and designing, building and debugging
                                                changes allowing them to correct for a                  Leslie Kux,                                           solutions for such open-ended
                                                spectrum of visual distances and                        Assistant Commissioner for Policy.                    problems; (2) to generate novel,
                                                refractive errors. As IOL technology                    [FR Doc. 2013–30148 Filed 12–18–13; 8:45 am]          innovative tools to improve healthcare,
                                                evolves, some endpoints for the                         BILLING CODE 4160–01–P                                consistent with NIBIB’s purpose to
                                                evaluation of the technology are also                                                                         support research, training, the
                                                evolving. Endpoints and strategies for                                                                        dissemination of health information,
                                                assessing the relative safety and                                                                             and other programs with respect to


                                           VerDate Mar<15>2010   16:41 Dec 18, 2013   Jkt 232001   PO 00000   Frm 00034   Fmt 4703   Sfmt 4703   E:\FR\FM\19DEN1.SGM   19DEN1
